           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


      CONTROLS OVER TITLE XVI
       IMMEDIATE PAYMENTS

    September 2009   A-04-09-19104




AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                          SOCIAL SECURITY
MEMORANDUM

Date:   September 2, 2009                                                                        Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Controls over Title XVI Immediate Payments (A-04-09-19104)



        OBJECTIVE
        The objectives of our review were to (1) evaluate the adequacy of the Social Security
        Administration’s (SSA) controls over the issuance of Title XVI immediate payments and
        (2) determine whether the payments were properly recorded on the Supplemental
        Security Record (SSR) and subsequently offset against future benefits.

        BACKGROUND

        Title XVI of the Social Security Act established the Supplemental Security Income (SSI)
        program to provide income to financially needy individuals who are aged, blind, or
        disabled. 1 Individuals eligible for SSI receive monthly payments. However, on
        occasion, SSI recipients claim delay, interruption, or nonreceipt of their payment and, as
        such, state that a financial emergency exists. The SSI program allows immediate
        payments to be issued at local field offices for SSI recipients who have a financial
        emergency involving an immediate concern to the individual’s health or safety. 2

        SSA field offices issue immediate payments when payments through the Department of
        the Treasury cannot be requested or would not be fast enough. An immediate payment
        is an advance of an SSI payment due the recipient and must be recovered. The
        maximum amount of an immediate payment is $999, which cannot be exceeded in any
        circumstance. However, the amount may be less based on the payment due the
        recipient or the amount requested for the emergency. 3



        1
            The Social Security Act, §§ 1601-1637, 42 U.S.C. §§ 1381-1383f.
        2
          SSA, Program Operations Manual System (POMS), SI 02004.100.B.1. and SI 02004.005.A.2. In
        addition to a financial emergency, policy also allows SSA to make an immediate payment if the case
        represents a potential public relations problem requiring prompt action, such as homelessness or natural
        disasters that prevent mail delivery or access to banks.
        3
            POMS, SI 02004.100.B.5.
Page 2 - The Commissioner


In 2002, we issued a report 4 that noted a lack of controls and system automation in
issuing immediate payments. In 2003, SSA automated the Title XVI immediate
payment process and integrated the Third Party Payment System (TPPS) with the SSR
so immediate payments are automatically posted to both systems.

If the conditions for an immediate payment are met, a field office claims/service
representative initiates the process to issue an immediate payment by entering the
payment information into the Modernized Supplemental Security Income Claims System
(MSSICS). Field office management must then approve the immediate payment in
MSSICS. 5 In 2002, SSA began using a “2-PIN” process, meaning the approval for the
immediate payment must come from an employee with a different personal identification
number (PIN) and password than the one used to establish the immediate payment.

The claims/service representative transmits the payment information, which posts the
immediate payment to the SSR and makes it available to the TPPS. A field office
cashier uses TPPS to print the check. Upon receipt of the check, the beneficiary signs
an Advance Payment Receipt and Notice (Form SSA-8102) to acknowledge receipt of
the immediate payment and his/her understanding that the payment is an advance of
SSI payments due, which will be recovered. The following day, the field office should
obtain a Supplemental Security Income Display to confirm that the immediate payment
was posted correctly. The field office should retain Form SSA-8102 and a copy of the
third-party draft that was issued to the beneficiary. 6

For Fiscal Years 2007 and 2008, SSA issued 116,278 SSI immediate payments totaling
$70,498,959. For our review, we randomly selected and analyzed 50 of these
immediate payments to (1) determine what type of documentation SSA could provide to
justify the payments and (2) ensure the immediate payments were correctly posted to
the SSR and recovered from the beneficiary. Additional information about our scope
and methodology is in Appendix B.

RESULTS OF REVIEW

SSA did not always maintain required documentation for the 50 Title XVI immediate
payments reviewed. Specifically, field offices could not provide copies of Form
SSA-8102 and/or third-party drafts for 14 (28 percent) of the 50 cases reviewed.
Despite the missing documentation, SSA properly recorded the 50 immediate payments
on the SSR and subsequently recovered the payments from the SSI recipients. We
also noted that none of the immediate payments in our sample was more than the
maximum allowed $999 or the amount due the beneficiary.



4
 Review of Internal Controls for the Supplemental Security Income Immediate Payment Process
(A-05-00-10045), September 2002.
5
    POMS, SI 02004.130.A – Step 7.
6
    POMS, SI 02004.130.B.4.b. and Administrative Instructions Manual System 03.05.07.A.
Page 3 - The Commissioner


SSA COULD IMPROVE ITS SUPPORTING DOCUMENTATION FOR THE ISSUANCE
OF TITLE XVI IMMEDIATE PAYMENTS

SSA could not always provide required documentation for the 50 immediate payments
reviewed. According to SSA policy, for each immediate payment, field offices should
maintain the Form SSA-8102 and a copy of the third-party draft issued to the recipient. 7
However, for 14 (28 percent) of the 50 Title XVI immediate payments reviewed, SSA
could not provide 1 or both of these documents. For 6 (12 percent) of the 50 immediate
payments, SSA could not provide the Form SSA-8102. In addition, for 12 (24 percent)
of the 50 immediate payments, SSA could not provide a copy of the third-party draft.
SSA should issue a reminder to the field offices to ensure they maintain all required
documentation for Title XVI immediate payments.

SSA PROPERLY RECORDED AND RECOVERED TITLE XVI IMMEDIATE
PAYMENTS

Through our review of 50 randomly selected Title XVI immediate payments, we
determined SSA properly recorded the payments on the SSR and subsequently offset
them against future payments. In all cases, the amount of the immediate payment SSA
posted and recovered on the SSR matched the amount from our sample. In addition,
none of the immediate payments in our sample was more than the maximum allowed
$999 or the amount due the beneficiary. Therefore, we concluded that SSA’s
automated systems were working appropriately to ensure immediate payments were
recorded and recovered correctly.

CONCLUSION AND RECOMMENDATION

Since our review of Title XVI immediate payments in 2002, SSA has automated the
process and integrated TPPS with the SSR. Accordingly, immediate payments are
automatically posted to both systems through field office input in MSSICS. This process
appears to be working well to ensure immediate payments are properly recorded on the
SSR and recovered from the beneficiary. However, SSA could do a better job of
maintaining supporting documentation for immediate payments.

Accordingly, we recommend that SSA issue a reminder to field offices to ensure they
maintain all required documentation for Title XVI immediate payments.




7
    Ibid.
Page 4 - The Commissioner


AGENCY COMMENTS
SSA agreed with our recommendation. See Appendix C for the full text of SSA’s
comments.



                                             S
                                             Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Agency Comments
APPENDIX D – OIG Contacts and Staff Acknowledgments
                                                            Appendix A

Acronyms
Form SSA-8102   Advance Payment Receipt and Notice
MSSICS          Modernized Supplemental Security Income Claims System
OIG             Office of the Inspector General
PIN             Personal Identification Number
POMS            Program Operations Manual System
SSA             Social Security Administration
SSI             Supplemental Security Income
SSR             Supplemental Security Record
TPPS            Third Party Payment System
                                                                     Appendix B

Scope and Methodology
To accomplish our objectives, we obtained a data extract from the Social Security
Administration’s (SSA) Audit Trail System for all Title XVI immediate payments made in
Fiscal Years 2007 and 2008. For the period October 1, 2006 through
September 30, 2008, SSA issued 116,278 Title XVI immediate payments totaling
$70,498,959. For our review, we randomly selected 275 of these immediate payments
for testing. However, we performed initial testing on a probe sample of 50 Title XVI
immediate payments. This probe sample consisted of the first 50 immediate payments
from our random sample of 275.

For each Title XVI immediate payment reviewed, we (1) obtained the Supplemental
Security Record (SSR) to determine whether the immediate payment was posted and
recovered correctly; (2) ensured the immediate payment amount did not exceed the
allowed maximum of $999 or the amount due the beneficiary; and (3) obtained and
reviewed all available documentation for the immediate payment from the issuing field
office.

Our tests on the probe sample determined that all 50 immediate payments were
properly posted to the SSR and recovered from the beneficiary, which did not result in
an overpayment. Accordingly, we did not extend testing to the full sample of 275.

We also performed the following steps to accomplish our audit objectives.

   We reviewed applicable Federal laws and regulations as well as pertinent sections of
    SSA’s policies and procedures.

   We reviewed previously issued Office of the Inspector General reports related to
    immediate payments.

   We interviewed SSA personnel to obtain an understanding of the procedures for
    processing a request for a Title XVI immediate payment and the subsequent actions
    needed to account for the payment.

We found the data used for this audit were sufficiently reliable to meet our audit
objectives. The audited entity was the Office of the Deputy Commissioner for
Operations. Our work was conducted in Atlanta, Georgia, from February through
May 2009. We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objectives. We believe the
evidence obtained provides a reasonable basis for our findings and conclusions based
on our audit objectives.
                  Appendix C

Agency Comments
                                          SOCIAL SECURITY

MEMORANDUM


Date:      August 20, 2009                                                         Refer To: S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      Margaret J. Tittel /s/ Michael Gallagher for
           Acting Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, “Controls Over Title XVI Immediate
           Payments” (A-04-09-19104)--INFORMATION


           Thank you for the opportunity to review and comment on the draft report. We appreciate OIG’s
           efforts in conducting this review. Attached is our response to the report recommendation.

           Please let me know if we can be of further assistance. Please direct staff inquiries to
           Candace Skurnik, Director, Audit Management and Liaison Staff, at (410) 965-4636.


           Attachment




                                                          C-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL’S DRAFT REPORT,
“CONTROLS OVER TITLE XVI IMMEDIATE PAYMENTS” (A-04-09-19104)

Our response to your specific recommendation is as follows.

Recommendation

Issue a reminder to field offices to ensure they maintain all required documentation for Title XVI
immediate payments.

Comment

We agree. By December 2009, we will issue a reminder to our field offices to maintain all
required documentation for Title XVI immediate payments.




                                               C-2
                                                                     Appendix D

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Kimberly A. Byrd, Director, Atlanta Audit Division

   Frank Nagy, Audit Manager

Acknowledgments

In addition to those named above:

   Mike Leibrecht, Auditor

   Charles Lober, Information Technology Specialist

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-04-09-19104.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
